                                 ADVISORY




 CLARIFICATION NEEDED ON U.S. FISH
 AND WILDLIFE SERVICE’S GUIDANCE FOR
 IMPLEMENTING THE NEW REQUIREMENTS
 OF TITLE 50 OF THE CODE OF FEDERAL
 REGULATIONS, § 80.35, “CERTIFICATION
 OF LICENSE HOLDERS”




Report No.: K-MA-FWS-0002-2013     June 2013
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR



Memorandum
                                                                                   JUN 2 8 2013
To:             Daniel M. Ashe
                Director, U.S. Fish and Wildlife Service

From:          KimberlyElmore ~~ ~
               Assistant Inspector General for Audits, Inspections, and Evaluations

Subject:       Management Advisory- Clarification Needed on U.S. Fish and Wildlife
               Service's Guidance for Implementing the New Requirements of Title 50 of the
               Code of Federal Regulations, § 80.35, "Certification of License Holders"
               Report No. K-MA-FWS-0002-2013

        Under the Federal Wildlife and Sport Fish Restoration Program (Program), the U.S. Fish
and Wildlife Service (FWS) provides grant funds to eligible States to conserve and enhance sport
fish and wildlife resources. Program funds are apportioned to the States based in part on the
number of sport fish and wildlife licenses sold.

        In August 2011, FWS published a revision of 50 C.F.R. § 80.35, making significant
changes to the license certification process (see Attachment 1). These changes affect how
lifetime licenses, a type of multiyear hunting and fishing license issued by States, are reported
under the Program. On July 31, 2012, FWS issued guidance for implementing the new
requirements to the States in its "Online Toolkit."

         At a joint FWS and Office oflnspector General (OIG) training session held in Denver,
CO, the week of April 1, 2013, an FWS official provided an interpretation of the new guidance.
According to this interpretation, if the cost of a lifetime license is not in close approximation to
the annual revenue for other licenses with similar privileges while the lifetime license is valid
(that is, during the holder's lifetime), the license would be reported under the Program only for
the year it was issued. For instance, if a State issues a lifetime license to hunt game birds for
$100 and an annual license to do the same costs $10, the lifetime license would be reported only
for the first year.

        One State official we spoke to, however, believed that a lifetime license would be
counted for the same number of years that its cost is in close approximation to other licenses'
annual revenue. Therefore, using the same example, if a lifetime game bird license costs $1 00
and an annual game bird license costs $10, the lifetime license would be reported for 10 years
rather than just 1 year.

        OIG believes that the current guidance is unclear. FWS should clarify whether it intends
to count a lifetime license only once, rather than for multiple years, if the revenue from the
lifetime license is not in close approximation to the annual revenue from other types of license.



                           Office of Audits, Inspections, and Evaluations   I Reston, VA
Furthermore, in order to ensure consistency among the States, FWS should issue the clarification
in writing and include it in its Online Toolkit.

        We did not conduct the work associated with this management advisory in accordance
with standards such as the Generally Accepted Government Auditing Standards issued by the
Comptroller General of the United States or the Quality Standards for Inspections as put forth by
the Council of the Inspectors General on Integrity and Efficiency. We did, however, plan and do
research to obtain sufficient, appropriate evidence to provide a reasonable basis for our
conclusions.

        We do not require a formal response to this advisory, but we would appreciate being
apprised of any actions that FWS takes in response. If you have any questions about this report,
please contact Chris Krasowski, Supervisory Auditor, at 703-487-5375, or me at 202-208-5512.


Attachment




                                                2
                                                                                       Attachment 1


                United States Department of the Interior
                            FISH AND WILDLIFE SERVICI:
                                   \\ ashington. D.C . 20240

In Reply Refer To:                                             JUL 3 1 2012
FWS/AWSR/052199



To:     State f-ish and Wildlife Agencies
        Secretary. Department of Natural Resources of the Commonwealth of Puerto Rico
        Governor of Guam
        Governor of the U.S. Virgin Islands
        Governor of American Samoa
        Govemor of the Commonwealth of the Northern Mariana Islands
        Mayor of the District of Columbia

The U.S. Fish and Wildlife Service (Service) requests your annual hunting and fishing
license certHications so that you may continue to take part in the Wildlife and Sport Fish
Restoration Programs (WSFR) under the Dingeli-Johnson Sport Fish Restoration Act and
the Pittman-Robertson Wildlife Restoration Act. To take pan in WSFR fish and v.~ldJifc
agencies must annually certify the number of paid hunting license holders and paid
fishing license holders. We use this information to calculate final apportionments for all
participants in WSFR for Fiscal Year 2013.

Please certify the number of paid license holders in your State no later than
August 31. 2012. by using the electronic submission process described in E lectronic
Submission Process or by completing and sending in the enclosed Form 3-1 54a (Part I -
Certification). Your license certification year may be either your fiscal year or your
Iicense year. but it must end between October 1, 20 l 0 and September 30. 20 II. You can
get additional information on certifying the number of paid license holders from Title 50
of the Code of Federal Regulations. Part 80, Subpart D. as published in the Federal
Register on August 1, 201 l (copy enclosed).

We also collect information on paid and nonpaid licenses issued and costs of these to
hunters and anglers. We post this information on our Web site and use it in news releases
and to answer requests from Congressional offices, State agencies, conservation
organ izations, outdoor writers. and others. You may use the electronic submission
process or complete and send in the enclosed Form 3-154b (Part II - Summary of Hunting
and Sport Fishing Licenses Issued) to provide this information. Please note. when
completing the Form 3-1 54b you must report alJ paid and nonpaid hunting and sport
fishing licenses, tags. stamps, and permits, as well as costs to the purchaser. Because
rorm 3- 154b includes all Iicenses sold, the information on this fo rm may not match the
number of license holders shown on Form 3-154a




                                                                                                 1
                                                                                         Attachment 1




Electronic Submission Process:

You may electronically certify your license information through the Federal Assistance
Information Management System (iF AIMS) Web site (http://faims.fws.gov). To use this
system you must have an iF AIMS Internet login account. Your Federal Assistance
Coordinator(s) should have already established an account If you do not have an
account or if you have questions about the iFAIMS Web site, please contact your
Regional WSFR office. With a valid login. you can access license certification by
selecting the License Certification tab. and clicking on the link to enter the application.
We prefer that you submit your license certification information electronically to provide
greater efficiencies and effectiveness in the apportionment process.

Manual Process:

If you are unable to access or choose not to use the electronic certification process, you
can send two hard copies of each completed form (3-l54a and 3-154b). One copy of
each form must be sent to the Chief, Di vision of Administration and Information
Management, 4401 N. Fairfax Drive, FA, Mail Stop: WSFR 4020, Arlington, Virginia
22203. One copy of each form must be sent to your U.S. Fish and Wildlife Service
Regional Office to the attention of the C!Lief. Division of Wildlife and Sport Fish
Restoration. All reports. electronic and paper. are due by August 31,2012.

Special Instructions:

On August l, 2011 the Service published new regulations to modify and clarify license
certification requirements. We have included with this letter a copy ofTitle 50 of the
Code of Federal Regulations, Part 80. Subpan D-Cenification of License Holders; and
we have included a guidance for implementing the new requirements. Please review
them both closely.

We appreciate your anention to this maner. If you have any questions or concerns,
please contact., Mr. TIannibal Bolton. Assistant Director. Wildlife and Sport Fish
Restoration, at (202) 208-733 7. or contact Mr. Steve Barton. Chief, Division of
Administration and Information Management, at (703)35 8-2156.




                                              DIRECTOR


Enclosures


                                                                                                   2
                                                                                                      Attachment 1




                                   U.S. Fish and Wildlife Service

                          Guidance for Implementing the New Requirements of

                            50 CFR Subpart 0-Certification of License Holders

On August 1, 2011, the U.S. Fish and Wildlife Service published a revision of 50 CFR Part 80. The revision
made significant changes to the regulation. This included changes to the license certification process.
This guidance will help you understand and apply the new rules.

The location of the license certification rules have changed from 50 CFR § 80.10. The rules are now
located in 50 CFR 80 Subpart D-Certification of License Holders. The new location as well as the new
question and answer with tables were meant to make the rules easier to read and understand.

Section 80.30 begins with an explanation of why an agency must certify the number of paid license
holders. Section 80.31 explains how an agency certifies the number of paid license holders. New
wording says that the State certifies the number of paid license holders by responding to the Director's
annual request. This section also goes on to clarify that if a State uses statistical sampling to eliminate
duplicate license holders, then the statistical sample must be done:

    •   every 5 years; or
    •   after any change in the licensing system that could affect the license count.

It also requires the State to provide documentation to support the accuracy of this information at the
Director's request.

Section 80.32 defines the certification period. This definition had no significant changes.

Section 80.33 details whom to count as paid license holders in the annual certification. We have added
a table to this section to help you determine which license holders to count. A license holder may only
be counted in one certification year ifthe license is good for less than two years. You count that license
holder either as a hunting license holder or as a fishing license holder as appropriate. A combination
license holder may be counted as both a hunting license holder and a fishing license holder. This section
also defines both single year and multiyear licenses. A single year license is one that is good for less
than two years and a multiyear license is good for two years or more. Additionally, a hunting license or
fishing license must each make at least $1.00 of net revenue each year you will count them.
Combination licenses must make at least $2.00 of net revenue each year you will count them. You can
count single year licenses only in the year that they become valid. You can count multiyear licenses
every year they are valid. All licenses must be issued to an individual for you to be allowed to count
them. We have included with the new rules guidance on calculating net revenue in§ 80.34.

There are new rules that apply additional requirements to multiyear licenses. These rules are outlined
in§ 80.35. This section says that each multiyear license must earn net revenue that is in close
approximation to the net revenue received for a single-year license providing similar privileges in
addition to the minimum net revenue requirement§ 80.33. This revenue must be calculated:
                                                                                                                3
                                                    1 of3
                                                                                                       Attachment 1




    •    Each year the license is valid, or
    •    When the license is sold as if it were a single-payment annuity.

A single-payment annuity is an investment of the license fee that results in you receiving at least net
revenue that closely approximates net revenue received for a single-year license providing similar
privileges for each year the license is valid. There are several free single-payment immediate annuity
calculators available on the Internet. The following is one that you may use to help in your review of a
multi-year license program: http://www. free an nuityrates.com/a nn uities/calculators/immed iate-
annuity-calculator.php. The rules define the valid period for a multiyear license as the stated length of
time that the license is good for a license with a specified ending date, or the period in which the license
holder is alive for life time licenses. The rule also says that you must get the Director's approval the way
you decide how many multiyear-license holders remain alive. Some examples are statistical sampling,
life-expectancy tables, and mortality tables.

So, to recap the requirements in§ 80.35, if you want to count a multiyear license holder in your
certification it must meet these criteria. For a license good for a specific number of years:

    1.   The license must earn at least an amount that is in close approximation to the net revenue
         received for a single-year license providing similar privileges for each year that the license is
         valid (stated number of years); and
    2.   The license must earn at least the applicable minimum net revenue for each year that the
         license is valid (stated number of years); and
    3.   Net revenue must be calculated either annually or at the time of sale as single-payment annuity.

For a lifetime license:

    1. The license must earn at least an amount that is in close approximation to the net revenue
         received for a single-year license providing similar privileges for each year that the license is
         valid (license holder is still alive); and
    2.   The license must earn at least the applicable minimum net revenue for each year that the
         license is valid (license holder is still alive); and
    3.   Net revenue must be calculated either annually or at the time of sale as single-payment annuity.

Another new rule is that you can now count license holders in the annual certification if the licenses
were provided free of charge to an individual(§ 80.36). You can only count these license holders if you
receive funds from the State to cover their license fees. These funds must meet these criteria.

    1.   They must come from a source other than hunting and fishing license revenue.
    2.   You must identify the funds to cover license fees separately from other funds provided to the
         agency.
    3.   You must receive at least the average amount of State-provided discretionary funds that you
         received for the past five fiscal years.
    4. The funds must be at least equal to the fees charged for the single-year license providing similar
         privileges or have Director's approve for the fee paid.
                                                                                                                 4
                                                         2 of3
                                                                                                    Attachment 1




    5.     These funds are license revenue and must be accounted for as such.

Additionally, for you to be allowed to count these licenses, must issue each license to an individual and
be able to trace the license to that individual. All other requirements of Subpart D also apply to these
licenses

The final three sections deal with correcting errors and adjusting apportionments. These sections
outline the requirements for what you must do if you discover an error in your certified license data(§
80.37); when the Service might recalculate an apportionment(§ 80.38); and what the Service does when
we discover an error(§ 80.39).




                                                                                                              5
                                                   3 of 3
                                                                                                                           OMB Control No. 1018-0007
                                                                                                                           Expiration Date: 02/28/2013


                                                    UNITED STATES
                                         DEPARTMENT OF THE INTERIOR
                                                 Fish and Wildlife Service
                                       Wildlife and Sport Fish Restoration Program


                                                PART 1- CERTIFICATION

                                                    A. Hunting License Holders

I certify that ---=;;;::;-;;="""'""""=""""""""'=..,.,..="""'----
                     (enter name of State, territory, or District of Columbia) had
-"'-'==-===,.--paid hunting license holders during the license year ending
     (enter total number)
---;;===--·                                I certify this information as per the Federal Aid in Wildlife
       (mm/dd/yyyy)
Restoration Act, as amended (50 Stat. 917; 16 U.S.C. Sec. 669 et seq.), and the
regulations of the Secretary of the Interior.

                                               B. Sport Fishing License Holders

lcertifythat _ _~~----~~~~~~~~~----had
                                     (enter name of State, territory, or District of Columbia)
-=====:;;--paid fishing license holders during the license year ending
     (enter total number)
                                           I certify this information as per the Federal Aid in Sport
       (mm/dd/yyyy)
Fish Restoration Act, as amended (50 Stat. 917; 16 U.S.C. Sec. 777 et seq.
except 777e-1 ), and the regulations of the Secretary of the Interior.



                                                                                                                 (Signature)




               (Date)                                                                                                (Title)




 We are disclosing the following according to the Paperwork Reduction Act of1995 (44 U.S.C. 3501) and the Privacy Act of 1974 (U.S.C. 552):

 The Federal Aid In Wildlife Restoration Act (16 U.S.C. 669 et seq.) and Federal Aid In Sport Fish Restoration Act {16 U.S.C. 777 et seq. except 777&1)
 authorize us to collect this Information. We use this information to apportion funds using the formula in the each Act. You must complete this form to obtain
 benefits. See Title 50 CFR 80.10 for additional guidance. Once submitted, this form becomes public information and Is not prctected under the Privacy Act.

 We estimate that the public reporting burden lor this form averages 12 hours per response. Our estimate Includes time for gathering information, and for
 completing, reviewing and signing the form. You may send your comments aboiJt this form to the Service Information Collection Clearance Officer, U.S. Fish
 and Wildlife Service, MS 222-ARLSQ. 1849 C Street, NW, Washington, DC 20240

 Federal agencies may not conduct or sponsor and you are not required to resp~nd to an information colleclon unless it displays a currently valid OMB control
 number. The Office of Management and Budget has reviewed this information collection and assigned OMB Control No. 1018-0007


                                                                                                                                          FWS Fonm 3-154a        6
                                                                                                                                            (Revised 10/09)
                                                                                                                             OMB Control No. 1018-0007
                                                                                                                             Expiration Date: 02/28/2013


                                                     UNITED STATES
                                          DEPARTMENT OF THE INTERIOR
                                                  Fish and Wildlife Service
                                        Wildlife and Sport Fish Restoration Program



         PART II ·SUMMARY OF HUNTING AND SPORT FISHING
                        LICENSES ISSUED

Name of State, Territory, or District of C o l u m b i a : - - - - - - - - - - -
License Year Ending (mm/dd/yyyy):


 NOTE: Include all paid and nonpaid licenses, tags, stamps, and permits issued
    for hunting, both firearm and bow, and for sport or recreation fishing.

                                                      HUNTING                                                             FISHING

    TYPE 1
                                      Number2                              Cost 3                        Number2                              Cost 3

    Resident

  Nonresident

         Total


     1. Estimate the distribution between these two categories when a type of
        license is issued to both residents and nonresidents.
     2. Include the number of licenses that allow a license holder to both hunt and
        fish in the total number in the hunting column and again in the total
        number in the of fishing column.
     3. Enter the total cost of all licenses. Prorate the cost of combination licenses
        between hunting and fishing based on the respective cost of each type of
        license.



 We are disclosing the following according to the Paperwork Reduction Act of 1995 (44 U.S. C. 3501) and the Privacy Act of 1974 (U.S. C. 552):

 The Federal Aid in \Nildllfe Restoration Act (16 U.S. C. 669 at seq.) and Federal Aid in Sport Fish Restoration Act (16 U.S.C, 777 et seq. except 777e-1)
 authorize us to collect this information. We use this Information to verify the nunbers that you certified for license holders. You must complete this form to
 obtain benefits. Once submitted, this form becomes public Information and Is not protected under the Privacy Act.

 We estimate that the public reporting burden for this form averages 20 hours per response. Our estimate includes time for gathering Information, and for
 completing and reviewing the form. You may send your comments about this form to the Service Information Collection Clearance Officer, U.S. Fish and
 Wildlife Service, MS 222-ARLSQ, 1849 C Slreet NW, washington, DC 20240.

 Federal agencies may not conduct or sponsor and you are not required to respond to an information collection unless it displays a currently valid OMB
 control number. The Office of Managerrent and Budget has reviewed this information collection and assigned OM B Control No. 1018-0007.


                                                                                                                                           FWS Form 3-154b        7
                                                                                                                                             (Revised 10/09)
                                                                                          Attachment 1




§ 80.21                                                 50 CFR Ch. I (10-1-11 Edition)
  (c) Income from the sale, lease, or        diverted property, whichever is great-
rental of, granting rights to, or a fee      er.
for access to real or personal property        (d) The agency must take one of the
acquired or constructed with license         following actions to resolve a diversion
revenue.                                     of real, personal, or intellectual prop-
  (d) Income from the sale, lease, or        erty:
rental of, granting rights to, or a fee        (1) Regain management control of
for access to a recreational oppor-          the property, which must be in about
tunity, product, or commodity derived        the same condition as before diversion;
from real or personal property ac-             (2) Receive replacement property
quired, managed, maintained, or pro-         that meets the criteria in paragraph (e)
duced by using license revenue.              of this section; or
  (e) Interest, dividends, or other in-        (3) Receive a cash amount at least
come earned on license revenue.              equal to the current market value of
  (f) Reimbursements for expenditures
                                             the diverted property only if the Direc-
originally paid with license revenue.        tor agrees that the actions described in
  (g) Payments received for services
                                             paragraphs (d)(!) and (d)(2) of this sec-
funded by license revenue.                   tion are impractical.
§ 80.21 What if a State diverts license        (e) To be acceptable under paragraph
    revenue from the control of its fish     (d)(2) of this section:
    and wildlife agency?                       (1) Replaceinent property must have
  The Director may declare a State to        both:
be in diversion if it violates the re-         (i) Market value that at least equals
quirements of §80.10 by diverting li-        the current market value of the di-
cense revenue from the control of its        verted property; and
fish and wildlife agency to purposes           (ii) Fish or wildlife benefits that at
other than the agency's administra-          least equal those of the property di-
tion. The State is then ineligible to re-    verted.
ceive benefits under the relevant Act          (2) The Director must agree that the
from the date the Director signs the         replacement property meets the re-
declaration until the State resolves the     quirements of paragraph (e)(l) of this
diversion. Only the Director may de-         section.
clare a State to be in diversion, and
only the Director may rescind the dec-       § 80.23    Does a declaration of diversion
laration.                                          affect a previous Federal obligation
                                                   of funds?
§ 80.22 What must a State do to resolve        No. Federal funds obligated before
    a declaration of diversion?
                                             the date that the Director declares a
  The State must complete the actions        diversion remain available for expendi-
in paragraphs (a) through (e) of this        ture without regard to the intervening
section to resolve a declaration of di-      period of the State's ineligibility. See
version. The State must use a source of      §80.91 for when a Federal obligation oc-
funds other than license revenue to          curs.
fund the replacement of license rev-
enue.
  (a) If necessary, the State must enact           Subpart D-Gerlificalion of
adequate legislative prohibitions to                   License Holders
prevent diversions of license revenue.
                                             § 80.30  Why must an agency certify the
  (b) The State fish and wildlife agency           number of pai.d license holders?
must replace all diverted cash derived
from license revenue and the interest          A State fish and wildlife agency must
lost up to the date of repayment. It         certify the number of people having
must enter into State records the re-        paid licenses to hunt and paid licenses
ceipt of this cash and interest.             to fish because the Service uses these
  (c) The agency must receive either         data in statutory formulas to appor-
the revenue earned from diverted prop-       tion funds in the Wildlife Restoration
erty during the period of diversion or       and Sport Fish Restoration prog-rams
the current market rental rate of any        among the States.

                                           580
                                                                                                    1
                                                                                                                                         Attachment 1




U.S. Fish and Wildlife Serv., Interior                                                                                     §80.33
§ 80.31  How doeS an agency certify the                                (1) Five years after the last statis-
    number of paid license holders?                                  tical sample; or
  (a) A State fish and wildlife agency                                 (2) Before completing the first cer-
certifies the number of paid license                                 tification following any change in the
holders by responding to the Director's                              licensing system that could affect the
annual request for the following infor-                              number of license holders.
mation:
                                                                     § 80.32     What is the certification pe·
  (1) The number of people who have                                          riod?
paid licenses to hunt in the State dur-
ing the State-specified certification pe-                             A certification period must:
riod (certification period); and                                       (a) Be 12 consecutive months;
  (2) The number of people who have                                    (b) Correspond to the State's fiscal
paid licenses to fish in the State during                            year or license year;
the certification period.                                              (c) Be consistent from year to year
  (b) The agency director or his or her                              unless the Director approves a change;
designee:                                                            and
  (1) Must certify the information at                                  (d) End at least 1 year and no more
paragraph (a) of this section in the for-                            than 2 years before the beginning of
mat that the Director specifies;                                     the Federal fiscal year in which the ap-
  (2) Must provide documentation to                                  portioned funds first become available
support the accuracy of this informa-                                for expenditure.
tion at the Director's request;
  (3) Is responsible for eliminating                                 § 80.33      How does an agency decide
multiple counting of the same individ-                                       who to count as paid license hold-
uals in the information that he or she                                       ers in the annual certification?
certifies; and                                                         (a) A State fish and wildlife agency
  (4) May use statistical sampling,                                  must count only those people who have
automated record consolidation, or                                   a license issued:
other techniques approved by the Di-                                   (1) In the license holder's name; or
rector for this purpose.                                               (2) With a unique identifier that is
  (c) If an agency director uses statis-                             traceable to the license holder, who
tical sampling to eliminate multiple                                 must be verifiable in State records.
counting of the same individuals, he or                                (b) An agency must follow the rules
she must ensure that the sampling is                                 in this table in deciding how to count
complete by the earlier of the fol-                                  license holders in the annual certifi-
lowing:                                                              cation:
                     Type of license holder                                         How to count each license holder

(1) A person who has either a paid hunting license or a paid         Once.
   sportfishlng license even if the person is not required to have
   a paid license or Is unable to hunt or fish.
(2) A person who has more than one paid hunting license be·          Once.
   cause the person ei)her voluntarily obtained them or was re-
   quired to have more than one license.
(3} A parson who has more than one paid sportfishlng license         Once.
   because the person either voluntarily obtained them or was
   required to have mora than one license.
(4} A parson who has a paid single-year hunting license or a         Once in the certification period in which the license first be-
   paid single-year sportlishing license for which the agency re-     comes valid.
   ceives at least $1 of net revenue. (Single-year licenses are
   valid for any length of time less than 2 years.}
(5} A person who has a paid multiyear hunting license or a           Once in each certification period In which the license is valid.
   paid multiyear sportlishing license for which the agency re-
   ceives at least $1 of net revenue for each year in which the
   license Is valid. (Multiyear licenses must also meet the re·
   qulrements at §60.35.)
(6) A person holding a paid single-year combination license          Twice in the first certification period in which the license Is
   permitting both hunting and sportfishing for which the agency       valid: once as a person who has a paid hunting license, and
   receives at least $2 of nat revenue.                                once as a person who has a p01id sportfishing license.
(7) A person holding a paid multiyear combination license per-       Twice in each certification period in which the license is valid;
   mitting both hunting and sportflshing for which the agency          once as a person who has a paid hunting license, and once
   receives at least $2 of net revenue for each year In which          as a person who has a paid sportfishing license.
   the license Is valid. (Multiyear licenses must also meet the
   requirements In § 60.35.)


                                                                581
                                                                                                                                                   9
                                                                                                              Attachment 1




§80.34                                                                      50 CFR Ch. I (10-1-11 Edition)

                     Type of license holder                                How to count each license holder

(B) A person who has a liCense that allows the license holder Cannot be counted.
  only to trap animals or only to engage in commercial fishing
  or other commercial activities.



§ 80.34  How does an a¥ency calculate                            tification period. Some examples of
     net revenue from a bcense?                                  techniques are statistical sampling,
  The State fish and wildlife agency                             life-expectancy tables, and mortality
must calculate net revenue from a li-                            tables.
cense by subtracting the per-license
                                                                 § 80.36  May an agency count license
costs of issuing the license from the                                holders in the annual certification
revenue generated by the license. Ex-                                if the agency receives funds from
amples of costs of issuing licenses are                              the State to cover their license fees?
vendors' fees, automated license-sys-
tem costs, licensing-unit personnel                                If a State fish and wildlife agency re-
costs, and the costs of printing and dis-                        ceives funds from the State to cover
tribution.                                                       fees for some license holders, the agen-
                                                                 cy may count those license holders in
§ 80.35   What additional requirements                           the annual certification only under the
      apply to multiyear licenses?                               following conditions:
  The following additional require-                                (a) The State funds to cover license
ments apply to multiyear licenses:                               fees must come from a source other
  (a) A multiyear license may be valid                           than hunting- and fishing-license rev-
for either a specific or indeterminate                           enue.
number of years, but it must be valid                              (b) The State must identify funds to
for at least 2 years.                                            cover license fees separately from
  (b) The agency must receive net rev-                           other funds provided to the agency.
enue from a multiyear license that is                              (c) The agency must receive at least
in close approximation to the net rev-                           the average amount of State-provided
enue received for a single-year license                          discretionary funds that it received for
providing similar privileges:                                    the administration of the State's fish
  (1) Each year during the license pe-                           and wildlife agency during the State's
riod; or                                                         five previous fiscal years.
  (2) At the time of sale as if it were a                          (1)    State-provided     discretionary
single-payment annuity, which is an                              funds are those from the State's gen-
investment of the license fee that re-                           eral fund that the State may increase
sults in the agency receiving at least                           or decrease if it chooses to do so.
the minimum required net revenue for                               (2) Some State-provided funds are
each year of the license period.                                 from special taxes, trust funds, gifts,
   (c) An agency may spend a multiyear                           bequests, or other sources specifically
license fee as soon as the agency re-                            dedicated to the support of the State
ceives it as long as the fee provides the                        fish and wildlife agency. These funds
minimum required net revenue for the                             typically fluctuate annually due to in-
license period.                                                  terest rates, sales, or other factors.
   (d) The agency must count only the                            They are not discretionary funds for
licenses that meet the minimum re-                               purposes of this part as long as the
quired net revenue for the license pe-                           State does not take any action to re-
riod based on:                                                   duce the amount available to its fish
   (1) The duration of the license in the                        and wildlife agency.
case of a multiyear license with a spec-                           (d) The agency must receive State
ified ending date; or                                            funds that are at least equal to the fees
   (2) Whether the license holder re-                            charged for the single-year license pro-
mains alive.                                                     viding similar privileges. If the State
   (e) The agency must obtain the Di-                            does not have a single-year license pro-
rector's approval of its proposed tech-                          viding similar privileges, the Director
nique to decide how many multiyear-li-                           must approve the fee paid by the State
cense holders remain alive in the cer-                           for those license holders.

                                                             582
                                                                                                                       10
                                                                                             Attachment 1




U.S. Fish and Wildlife Serv., Interior                                              §80.50
  (e) The agency must receive and ac-             Subpart E-Eiigible Activities
count for the State funds as license
revenue.                                      § 80.50 What activities are eligible for
  (f)The agency must issue licenses in            funding under the Pittman-Hobert·
the license holder's name or by using a           son Wildlife Restoration Act?
unique identifier that is traceable to          The following activities are eligible
the license holder, who must be               for funding under the Pittman-Robert-
verifiable in State records.                  son Wildlife Restoration Act:
  (g) The license fees must meet all            (a) Wildlife Restoration program.
other requirements of 50 CFR 80.                (1) Restore and manage wildlife for
                                              the benefit of the public.
§ 80.37  What must an agency do if it           (2) Conduct research on the problems
    becomes aware of errors in its cer·       of managing wildlife and its habitat if
    tified license data?                      necessary to administer wildlife re-
  A State fish and wildlife agency must       sources efficiently.
submit revised certified data on paid li-       (3) Obtain data to guide and direct
cense holders within 90 days after it be-     the regulation of hunting.
comes aware of errors in its certified          (4) Acquire real property suitable or
data. The State may become ineligible         capable of being made suitable for:
to participate in the benefits of the rel-      (i) Wildlife habitat; or
evant Act if it becomes aware of errors         (ii) Public access for hunting or other
in its certified data and does not resub-     wildlife-oriented recreation.
mit accurate certified data within 90           (5) Restore, rehabilitate, improve, or
days.                                         manage areas of lands or waters as
                                              wildlife habitat.
§ 80.38    May the Service recalculate an       (6) Build structures or acquire equip-
     apportionment if an agency submits       ment, goods, and services to:
     revised data?                              (i) Restore, rehabilitate, or improve
  The Service may recalculate an ap-          lands or waters as wildlife habitat; or
portionment of funds based on revised           (ii) Provide public access for hunting
certified license data under the fol-         or other wildlife-oriented recreation.
lowing conditions:                              (7) Operate or maintain:
   (a) If the Service receives revised cer-     (i) Projects that the State fish and
tified data for a pending apportionment       wildlife agency completed under the
before the Director approves the final        Pittman-Robertson Wildlife Restora-
apportionment, the Service may recal-         tion Act; or
culate the pending apportionment.               (ii) Facilities that the agency ac-
   (b) If the Service receives revised cer-   quired or constructed with funds other
tified data for an apportionment after        than those authorized under the Pitt-
the Director has approved the final           roan-Robertson Wildlife Restoration
version of that apportionment, the            Act if these facilities are necessary to
Service may recalculate the final ap-         carry out activities authorized by the
portionment only if it would not re-          Pittman-Robertson Wildlife Restora-
duce funds to other State fish and wild-      tion Act.
life agencies.                                  (8) Coordinate grants in the Wildlife
                                              Restoration program and related pro-
§80.39 May the Director correct a             grams and subprograms.
    Service error in apportioning              (b) Wildlife Restoration-Basic Hunter
    funds?                                    Education and Safety subprogram.
  Yes. The Director may correct any             (1) Teach the skills, knowledge, and
error that the Service makes in appor-        attitudes necessary to be a responsible
tioning funds.                                hunter.
                                                (2) Construct, operate, or maintain
                                              firearm and archery ranges for public
                                              use.
                                                (c) Enhanced Hunter Education and
                                              Safety program.

                                          583
                                                                                                      11
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
